1=5918
IN THE SUPREME COURT

31

O.F THE UNITED STATES

Susan Lloyd, Petitioner

FILED
SEP 0 3 2021

V

OFFICE OF THE CLERK
SUPREME COURT. U.S.

Joshua Thornsbery, et al Respondents

ON PETITION FOR A WRIT OF CERTIORARI TO
OHIO SUPREME COURT
PETITION FOR WRIT OF CERTIORARI
Susan Lloyd «,
929 E Main St #101
Mt Joy, PA 17552

_____—

QUESTIONS PRESENTED
1. Are retired state judges constitutional?
2. Is a litigant given a fair trail by jury when judge has no
oath of office, irrelevant facts are focused on, discovery
is denied, evidence is denied, a juror and the judge fell
asleep,

physician depositions are denied and judge is

prejudicial, jury room is close to the courtroom and can be
heard vice versa , and the majority of the case.is
dismissed because the attorney did not mention all of the
Defendants names during opening statements and case is
sealed and denying Lloyd default judgment?
3. Is vexatious litigator status constitutional?
4. Is sanctioning a litigant who has an attorney and civil
rights are violated unconstitutional and a due process
violation?
5. Is denying a new trail constitutional when a litigants
rights are denied?
6. Is sanctioning a litigant constitutional when the other
parties admit to fault?
7. Is a State Supreme court allowed to deny cases when a
litigants State and Federal Constitutional Rights are
violated?
8. Is threats to rape and murder and defamatory and derogatory
comments about a (disabled) person free speech

\

ii

LIST OF PARTIES
1. Susan Lloyd,Plaintiff
2. Defendants represented by
Jason Whitacre
214 S Water St PO Box 762
Kent, OH 44240
Joshua Thornsbery
Jason Ortman
Nick Balas
Phillip Siwierka
Timothy Welms
Eric Siwierka
Apryle Davis
Darrel Huber
Jaime Newman
Shelley Ortman
Staci Dalton Liddle
Theresa Giaimo
Robert DiNatale
3. Defendants represented by
Mark Hanna
PO Box 10395

1

\

\

Pittsburgh, PA

15234

C AND N Forestry
Joshua Thornsbery
Nick Balas
Phillip Siwierka
Cindy Simcox
Connor Zanoskar
Jaird Kendzior
Marty Kendzior
4. Defendants represented by
Lindsay Molnar
Perduk Law Firm
3603 Darrow Rd
Stow, OH 44224
Michael Szabo
Sandi Szabo
5. Defendants represented by
Timothy Hart
6339 Morgan Rd
Ravenna, OH 44266
Rebecca Schaffer
David Trussel

\ \ '

6. William Taylor, Pro Se Defendant
2122 Gates Ave
Streetsboro, OH 44241
7. Daniel Bennett, Pro Se Defendant
119 Ebersole Rd
Fredericktown, OH 43019
8. Amanda Shuherk, Pro Se Defendant
08577 County Rd C
Bryan OH 43506
9. Robin White aka Harley Angel, Pro Se Defendant
10254 Brosius Rd
Garretsville, OH 44231
10.

Sue Whitlam, Pro Se Defendant

466 Brentwood Ave
Kent, OH 44240
Frank Chlad, Pro Se Defendant

11.

10122 William Henry Dr
Streetsboro, OH 44241
12.

Sebastian Dzialuk, Pro Se Defendant

7085 Seven Hills Blvd
Seven Hills, OH 44131

\\I

13.

Justin Smialek. Pro Se Defendant

4516 Rootstown Rd
Ravenna, OH 44266

v

RELATED CASES
1. Portage County Ohio 2016CV00230

Lloyd v Thornsbery, etal

2. 11th District Ohio Court of Appeals 2019PA0108

Lloyd v

Thornsbery, etal
3. 11th District Ohio Court of Appeals 2019PA0080Lloyd v
Thornsbery, etal
4. Supreme Court of Ohio 2021-0145 Lloyd v Thornsbery, etal
5. Supreme Court of Ohio 2021-0146 Lloyd v Thornsbery, etal

\fy

TABLE OF CONTENTS
OPINIONS BELOW

\ / APP ft "P-

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

\

STATEMENT OF THE CASE

\

V\

REASONS FOR GRANTING THE WRIT

l]o

CONCLUSION

INDEX TO APPENDICES

t'H

APPENDIX A
APPENDIX B
APPENDIX C

V

APPENDIX D
APPENDIX E

mi

APPENDIX F
APPENDIX G
APPENDIX H

n<\

APEENDIX I
APPENDIX

j

APPENDIX K

QO

APPENDIX L
APPENDIX M

)Dl

APPENDIX N

jo^r

APPENDIX 0

\AN

I Ob
APPENDIX P

jo/

APPENDIX Q

1^>

APPENDIX R

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
490 US at 876 .

Vi
15

.

Capital Traction Co V Hot, 174 US1,13-14, 19 S Ct 580, 43 L Ed
873 (1899)

\

4

Carpenter 723 F 3d at 704 quoting Carter V City of Memphis, 636

lb

F 2d 159,161 (6th Circ 1985)
Chapman V Keltner 241 F 3d, 842, 847 (7th Circ 2001)
Commonwealth V Lowder 731 NE 2d, 510,518 (Mass 2000)

V

Cooper v Aaron 358 US 1 (1958)
Estep v Kasparian, Franklin County, Ohio 79 OH App 3d 313
Fiechter V Fiechter 97 Kan 166, 167, 155 P 42(1916)
Galland V Meridia Health System 9th Dist 2004-OH-1416

\f\ ''

\1>

Giles V Ameri Family Life Ins Co 987 SW 2d, -490, 492 (MO App
1999)
Goldberg V Kelly 397 US 259, 271 (1970)
Jay V Massachusetts Casualty Ins Co 5th Dist 2009CA00056,
2009-0hio-4519

A

John V Goetz 531 F 3d, 448, 459 (6th Circ 2008)
Lloyd V Pokorny

Southern Dist Ohio- 2:20-cv-02928

Lloyd V Rogerson, Wayne Co OH, 2018APX00024
Lloyd V Roosevelt Investments, Cuyahoga OH, cvl5-845388

5

Lloyd V Streetsboro ND Ohio 5:18-cv00073
Marshall V Jerrico 446 US 238, 242 (1980)

l S'

Member Willaims V KNR 2016 Ohio-3928
Peckingham V North Carolina
Richmond Newspapers V Virginia 448 US 555, 573 (1980)
State ex rel Grosser v Boy(1976), 46 Ohio St 2d, 184, 185

State ex rel Harmon V Bender (1986) 25 Ohio St 3d, 619, 640 NE
17 4 n 9941

yk,h- % Cb'O V 'fiAUvJ^ S.J-oAi (.&>

o'jiSx’Q-

i<^
3°

>4

State V Bowers, 42 Kan App 2d, 739, 740, 216 P 3d 715 (2009)
State V Womelsdorf, 467 Kan App 2d, 307, 323, 274, P3d 662
(2012)

<4

Swigart V Barber F 96-039
US V Adams 583 F 3d 457, 469 (6th Circ 2009)
Whitacre V Nations Lending Northern Dist Ohio 5:19-cv-00809
Whitacre V Whitcare Trumbull County Ohio 2011-DR-00106

W

a

t

1

STATUES AND RULES
1st Amendment of US Constitution
14th Amendment of US Constitution
28USC453

35

Ohio House Bill Sub 151
Ohio Rule 2.2 B
Ohio Rule 2.3

3.

Ohio Rule 5.1a

5

ORC 3.23
ORC 149.43B
)>-

ORC 149.43 (C) (1)
ORC 901.51

\S

ORC 2315.01(A)(1)
ORC 2323.51 (B) (5)
ORC 2323.51

3M

ORC 2917.21(B)(2)
ORC 2921.45
Ohio Constitution Article I, Section I

}-7

Ohio Constitution Article I, Section 11
Ohio Constitution Article I, Section 16
Ohio Constitution Article IV, Section 2
Ohio Constitution Article IV, Section 6
Ohio Rules of Professional Conduct 1.16(b) (1)

y

A,1
314

f'.'VH
Portage County Rule 9.01
Portage County Rule 7.06

0(<u

Portage County Rule 11.04
Portage County Rule 20.04
Supremacy Clause of US Constitution Article 6, Clause 2

n
'i

Unpled Claims Doctrine
US Constitution Article III, Section I

1

IN THE
.

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petititioner prays that a writ of certiorari issue to review the
judgments below.
The opinions of the highest state court, Ohio Supreme Court to
review the merits appears at Appendixes A-B. They are dated
April 13, 2021.

The denial of motions for reconsideration

appears at Appendixes C-F. They are dated June 8, 2021 and June
24, 2021.
The opinions of the 11th district appeals court appears at
Appendixes G-H.

They are dated January 29, 2021.

The opinions of the trail court appears at Appendixes I-R.

They

are dated January 22, 2019, February 8, 2019, April 8, 2019,
June 4, 2019, June 17, 2019, June 19, 2019, June 24, 2019, July
16, 2019, October 18, 2019 and November 8, 2019.

JURISDICTION
The date on which the highest state court, Ohio Supreme Court,
decided my case was April 13, 2021.

A copy of those decisions

appears at Appendixes A-B.
A timely petition for rehearing/reconsideration was denied on
June 8, 2021 and June 24, 2021 and those orders are attached as
Appendixes C-F.
The jurisdiction of this court is invoked under 28 USC 1257(a)

'1cAs* \f\\To
j

Ondot/ 1^ cu
lOUstr- C CX-JV'-K

%

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FIRST AMENDMENT
FOURTEENTH AMENDMENT
DUE PROCESS OF FOURTEENTH AMENDMENT

STATEMENT OF THE CASE
This case was originally filed on March 16, 2016 in Portage
County Ohio court 2016CV00230, Lloyd v Thornsbery, et al.

The

case went to a jury trail in June 2019 which Lloyd was denied a
fair trail by jury as the jury was tainted, irrelevant issues
were focused on for 5 days, Lloyds attorney was not allowed to
show the jury the majority of her evidence even though the
Defendants had it for 3 plus years, Lloyds physician depositions

\

were denied, Pokorny refused to delay the trail by one day so
Lloyds physicians could testify after he denied their
depositions, and then Lloyd was sanctioned 100,000.00, most of
which were her attorneys responsibilities. Lloyd appealed to
Ohio 11th district who made it clear they ruled against Lloyd
because Lloyd exerts her 1st amendment rights. Lloyd appealed to
the Ohio Supreme Court who refused to take Lloyds-case even
though the Ohio and US Constitution were violated and they were
obligated to take the case as per Article IV, Section 2 of the
Ohio Constitution.

1. Are retired state judges constitutional
Under the Ohio Constitution, a state judge must reside in
the county, be in law practice at least 6 years and be under the
age of 70.

Qualified individuals must participate in partisan

primary elections followed by non partisan general elections.
Article IV, Section 6 of the Ohio Constitution sets retirement
age at 70.

Ohio does not even follow their own laws when

assigning retired judges which violate litigants rights.

Rule

2.2 B for assignment of retired judges in Ohio state a judge
cannot be assigned for more than 3 consecutive months.

Pokorny

was on his 7th consecutive month when he was assigned to Lloyds
case. He has already been assigned for up to 21 months
consecutively.

Ohio Supreme Court Rule 2.3 also states that

before a retired judge is assigned, all sitting judges must
recuse themselves.

There was other sitting judges who could

have heard Lloyds case including Laurie Pittman.

By Ohio law,

she must be assigned to Lloyds case but instead Pokorny was
assigned.

Pokorny also does not reside in Portage County as

required by Ohio law. Ohio Rule 5.1a also states that a
certificate of assignment must be filed and sent to all parties
when a retired judge is assigned.
Lloyds case.

This also did not happen in

Lloyd also had 2 judges on her case at the same

time, both retired.

John Enlow and Thomas Pokorny.

This also

violates Lloyds constitutional rights.
A retired judge can only be used when a litigant agrees as
they are not elected by the people and a state litigant has a
right to an elected judge,

Neither Lloyd nor her attorney ever

agreed to a retired judge and in fact, Lloyd filed an Affidavit
to Disqualify Pokorny prior to trail which was denied.

<Tp 255)

(Tp 257) In her affidavit, Lloyd stated that Pokorny was
violating her Constitutional Rights, was illegally assigned to
Lloyds case and was prejudiced towards Lloyd for trying to hold
Lloyd in contempt for a hearing she was not required to attend
while letting pro se Defendants and/or attorneys(who were
required to be in court), not show up.

(Appendixes I-J).

Pokorny had a predetermined mindset towards Lloyd and her case
prior to trail which means Lloyd did not receive a fair trail by

3

The Constitution requires that judges be elected and

jury.

retired judges acts have no force or effect after a judges term
expires.
Ohio retired judges also have no oath of office.

These

oaths of offices have been asked for by many litigants including
but not limited to Lloyd and Mary Louise Allen.

Not one valid

oath of office has ever been provided for Thomas Pokorny or John
Enlow.

ORC 3.23 requires an oath of office for all judges as

does 28 USC 453. The appeals court agrees that Pokorny needs an
oath of office (Appendix G

page 6) but even they cannot confirm

that Pokorny has an oath of office.

After Lloyd filed many

motions and public requests for Pokornys oath of office (which
is required to be provided as per Ohio public records law), no
oath has ever been provided to Lloyd.

(Tp 261)

As per Ohio law,

this assignment is to even be random and yet Brian Ames in
Portage County has 13 pending cases with Pokorny as a judge.
Many people, including Ames, have tried to get Pokorny
disqualified as he is known to violate litigants rights all
across Ohio. Litigants have a right to a fair trail by jury and
due process of the law which is denied by these retired judges.
Pokorny threatened to dismiss Lloyds case because she refused to
disclose her address to Defendants who admit to threatening to
murder Lloyd. Pokorny also stated he allowed Lloyds social media
posts to be shown to the jury (even though they were all

M

irrelevant and did not involve any Defendant) in order to give
Lloyd a bad character.

Pokorny also degraded and chided Brian

Ames and told Brian "dont he dare try to show Pokorny what the
law is". Pokorny also wrote in an answer with Ames, "Judge
Pokorny holds no office and is not entitled to representation by
the Portage County Prosecutors Office."

John Enlow, another

retired judge on Lloyds case told Mary Louise Allen "she is not
allowed to talk the truth about her rapist'".
Retired judges are unconstitutional and they have made a
decision to retire.

Retired judges violate Article III, Section

1 of the US Constitution as retired judges can be removed by
other judges and even per Ohio law, state litigants have a right
to an elected judge.

Article 3 does not protect retired judges.

Therefore, retired state judges are unconstitutional and for
that reason alone, a writ of certiorari must be granted.

2. Is a litigant given a fair trail by jury when judge
has no oath of office, irrelevant facts are focused
on, discovery is denied, evidence is denied, a juror
and the judge fell asleep,

physician depositions are

denied and judge is prejudicial, jury room is close to
the courtroom and can be heard vice versa, and the
majority of the case is dismissed because the attorney
did not mention all of the Defendants names during

opening statements and case is sealed and denying
default judgment
All judges in Ohio are required to have an oath of office as per
ORC 3.23 and 28 USC 453.

After Lloyd filed many motions and

also public records request, Pokornys oath of office has never
been provided as Pokorny has no oath of office,

The 11th

district in their opinion, page 6 No 13 of case 2019PA00080
cannot even state whether Pokorny has oath of office even though
they agree he needs to have one.

John Enlow, a second retired

judge on Lloyds case, also has no oath of office.
Pokorny showed bias since he took over Lloyds case. In
March 2019, he even forced Lloyd to come back to Ohio for a
contempt hearing,

His own order stated that Lloyd was not

required to attend the previous hearing as she was represented
by counsel.

There were multiple other pro se Defendants and

attorneys who did not attend the hearing also even though they
were required to attend.

Lloyd is the only one that Pokorny

attempted to hold in contempt. (Appendix I-J) This shows clear
bias and prejudice towards Lloyd.

Pokorny, during trail, even

threatened to dismiss Lloyds case if she did not disclose her
address to the Defendants who threatened to murder Lloyd.
Lloyds address for this case is a Ups store as Lloyd is still in
fear for her life because Defendants are told it is acceptable
to threaten to murder Lloyd. Pokorny also showed bias by

T‘

allowing irrelevant issues such as Lloyds previous cases (none
of which involved any Defendant) and Lloyds social media posts
(none of which pertained to any Defendant) to be introduced to
the jury under ongoing objections by Hull even though none of
these issues were relevant.

To this date, nobody has ever sued

Lloyd for any of her social media posts and most of Lloyds
previous cases in Ohio were settled in her favor before trial.
These issues were maliciously introduced to the jury to taint
the jury and degrade Lloyd,

In fact, the jury after hearing

about Lloyds other cases actually asked Pokorny if 'Lloyd could
sue them.

This was all maliciously done by Jason Whitacre and

Lindsay Molnar, Defendants attorneys. ORC 2921.45 states Lloyd
had a right to a fair trail by jury which was denied. The US
Constitution states Lloyd has a right to a fair trail by jury.
The Supremacy Clause of the US Constitution Article VI Clause 2
establishes that the 'Constitution, federal laws made pursuant to
it and treaties made under its authority constitute the supreme
law of the land.

State courts are bound by the supreme law and

have the power and the duty

to enforce obligations under

Federal Law. Cooper v Aaron 358 US 1 (1958). The US Supreme
Court has assumed jurisdiction on appeal for certorari in
numerous cases m which State. Courts violated the law. In 2 of
Lloyds other cases, the courts did not allow Lloyds previous
cases to come into play as they were irrelevant.-

Cuyahoga

County Ohio Lloyd v Roosevelt Investments CV15-845388 and Wayne
County Ohio Lloyd v Rogerson 2018APX00024.

In fact, Thornsbery

testified during 2016CV00230 that he and Rogerson joined forces
to get all of Lloyds cases derailed in a malicious attempt to
have Lloyd named a vexatious litigator. This shows Thornsbery
malicious acts towards Lloyd from day one.

Of course

Lindsay

Molnar actually stated it is funny for her client Michael Szabo
to piss on Lloyds fence and threaten to murder Lloyd for 50.00.
Whitacre has allowed his clients to threaten to rape and murder
Lloyd while they damaged over 25,000.00 of Lloyds property,
forcing Lloyd to flee Ohio.

In the meantime, Whitacre was sued

by his ex wife for gross neglect and extreme cruelty (Trumbull
County Ohio 2011 DR 00106), brags online about evicting a
disabled couple, and makes racial discriminatory comments on his
Facebook page in regards to African Americans.

This is all the

while he allows Thornsbery to use signal jammers and wiretap
Lloyds phone even after Lloyd moved out of Ohio.

Thornsbery

testified that he gets instant notifications every time Lloyd
uses her phone.(Tp June 20, 2019 Pages 284-286)

Whitacre and

Thornsbery printed out hundreds of Lloyds personal messages
(none of which pertained to any Defendant) and they all said
less than 10 minutes ago.

This is wiretapping and is a federal

crime and yet Whitacre allows his clients to commit Federal
crimes.

Lloyd recently sued Whitacre in Federal Court.

i

Lloyd v

Pokorny 2:20cv-02928 Southern District Ohio.

Whitcare lied to

Federal Judge Sargus that he was never served even though he
clearly waived service and Lloyd sent him documents via his
email.

He never objected to email service and the court serves

Whitacre via the same email.

He had Lloyd sanctioned over

50,000.00 as this is the amount of money he owes to his mortgage
company and other personal debts he has not- paid since January
2019.

Whitacre v Nations Lending ND Ohio 5:19-cv-00809.

He

allows his clients to abuse illegal drugs, stalk and threaten to
murder Lloyd who is protected under the ADA after they caused
over 25,000.00 worth of damage to Lloyds property while Whitacre
also stalks Lloyd.
Hull also sent discovery out to all Defendants from 2016 to
2019, all of which was ignored.

(Tp 93){Tp 126)(Tp 146-167) Hull

filed a motion to compel discovery which was denied several
months before trail essentially locking Lloyd out from obtaining
any discovery at all.

(Appendix K) Thornsbery even admitted to

blocking his social media accounts so Lloyd could not discover
them.

(Tp June 19, 2019 Book 2 Page 272-273)

Parties to civil

litigation have a duty to preserve relevant information.

John v

Goetz, 531 F 3d, 448, 459 (6th Circ 2008). A duty of
preservation by Thornsbery occurred in March 2016 when suit was
filed against him.

Pokorny even stated "There is to be no

mention of any discovery issues involving the parties positions

that were not permitted discovery or anything under that
category (June 17, 2019 Page 39)(Tp June 18, 2019 Pages
193-195). In Galland v Meridia Health Sytem, 9th District
2004-0hio-1416, the 9th district reversed for an abuse of
discretion for refusal to allow the completion of discovery.
The 11th district in Lloyds case, refused to .do so and even
though the Ohio Supreme Court was obligated to take Lloyds case,
they also refused. Hull filed a Motion to compel the discovery
that he sent out for 3 years, and of course that was denied on
June 4 2019 (Td 302).Lloyds rights to a fair trail and her due
process rights were violated by denying Lloyd discovery.
Furthermore, since no Defendant answered the lawsuit prior to
June 4, 2019, the Unpled Claims Doctrine decrees that this
matter was still in the pleading stage and therefore Lloyd was
entitled to discovery.

The US Supreme Court has ruled that

"denial of discovery" is "so gross an abuse of discretion as to
amount to a virtual refusal to act at all in contemplation of
the law."

Lloyd has a right to discovery under the 14th

amendment due process rights.

Again, it must be reiterated.

Hull sent out discovery to all Defendants from 2016 through
2019, all of which was ignored and Hulls Motion to Compel was
denied essentially locking Lloyd out from discovery.

Then Lloyd

was sanctioned 100,000.00 stating she cannot prove her claims

after her right to discovery under the 14th Amendment was
violated.
Pokorny also refused Lloyds doctors previous depositions,
he refused to delay the trail by one day so Lloyds doctors could
testify after he denied their depositions, he refused police
body worn camera footage even though it is public record, he
refused videos and pictures from Hull showing tree damage and
other damage to Lloyds property and the Defendants trespassing
and harassing Lloyd even though the Defendants had the evidence
for 2 plus years, he refused evidence of the Defendants drug
abuse and their past criminal histories (all relevant as.the
'Defendants have threatened to murder and rape Lloyd- all of
which they are more likely to do while under the influence of
illegal drugs) even though he allowed' Whitacre and Molnar to
bring up irrelevant issues pertaining to Lloyds past cases and
social media posts.

This shows prejudice towards Lloyd. Local

Rule 7.06 was violated by not allowing Lloyds physician previous
taped depositions or testimony of her physicians to be admitted
into evidence when Defendants cross examined these physicians in
2017 and never objected to these witnesses until time of trail.
Under 7.06, Defendants must object in writing to these
depositions at least 3 days before trail.

No Defendant objected

until Hull attempted to admit the evidence at time of trail.

W

The jury room was also right beside the courtroom where the
jurors could hear discussions they were not privy to and Lloyd
could hear them clearly talking and laughing during trail and
deliberations.
Also a juror and Pokorny fell asleep during trail.

Video

of the trail is public record and of course Lloyd was also
denied this video.

ORC 149.43B and Swigart v Barber F96-039

state litigants are entitled to videos of a trail. Court records
are the peoples records and must be given to anybody upon
request. State ex rel Harmon v Bender (1986) 25 Ohio St 3d, 619,
640 NE 2d 174 (1994). The 11th district Appeals court fault
Lloyd for not showing where Pokorny fell asleep but in reality,
Lloyd cannot discuss a video she was denied.

Lloyd has no

access to this video except through the court. ORC 149.43
(C) (1)also allows Lloyd to receive 1000.00 for the refusal to
supply her public records of the trail.
Kansas Supreme Court has ruled that the public cannot have
confidence in the outcome of a trail if the judge is sleeping.
A sleeping judge affects the framework of the entire trail.
There can be no court without a judge.

A judge also needs to be

awake

and hear the entire case to decide a motion for a new

trail.

Lloyd filed a motion for a new trail based on many

violations of Lloyds constitutional rights, also Pokorny and a
juror sleeping but of course that was also denied.(Appendix

N)(Appendix P)(Appendix Q) Pokorny also showed prejudice by
failing to instruct the jury on destruction of timber which is a
separate cause of action in Ohio under ORC 901.51 and willful
and wanton misconduct.

Hull tried to correct these errors but

of course, Pokorny denied it.

(June 21, 2019 Pages 102-117)

Error not harmless when misstated law and jury instructions did
not properly inform the jury of the law. Even a facially correct
jury instruction may be incomplete, misleading, and prejudicial.
US V Adams 583 F 3d 457, 469 (6th Circ 2009). Kansas Supreme
Court ruled, it ought not to require very much of a showing of
prejudice to authorize a new trail. Fiechter v Fiechter 97 Kan
166, 167, 155 P 42(1916). Basic fair trail rights can never be
considered harmless.

A litigant has a right to have all stages

conducted by a person with jurisdiction to preside. 490 US at
876. A verdict must be reversed in situations where the
instruction is confusing, misleading and prejudicial US v Adams
583 F 3d 457, 469 (6th Circ 2009). Omitting requested correct
instructions such as what happened in this case, is reversible
error. Destruction of timber is a separate cause of action under
ORC '901.‘51 as requested by Hull and willful and wanton
misconduct is a cause of action when a Defendant acts with a
deliberate mindset.

Blowing cigarette towards Lloyd while she

wore oxygen and while you stood next to no smoking oxygen in use
signs (and bragged about your actions online)and making illegal

\3>

fires to malicioulsy harm a disabled person with breathing
issues and threatening to rape and murder a disabled person even
after you are sued, shows willful and wanton misconduct and
deliberateness of your actions. Chapman v Keltner '241 F 3d, 842,
847 (7th Circ 2001) .
A judge is empowered to instruct the jury on the law and
advise them on the facts,

Capital Traction Co V Hot, 174 US 1 ,

13-14, 19 S Ct 580, 43 L Ed 873 (1899).

A sleeping judge can

only supervise his dreams and affects the framework within which
the trail proceeds. State v Womelsdorf, 467 Kan App 2d, 307,
323, 274, P3d 662(2012). A lack of an impartial or sleeping
judge cannot be cured by anything other than a new trail. Lloyd
raised this issue on appeal and is allowed as an impartial and
sleeping judge and a sleeping juror denies Lloyd her fundamental
right to a fair jury trail which is the most fundamental right
in the US

State v Bowers, 42 Kan App 2d, 739, 740, 216 P 3d 715

(2009)
The majority of Lloyds case was dismissed after Hull made
his opening statement as he did not mention all of the
Defendants names.(Tp June 17, 2019 Pages 71-78) Hull attempted
to be heard further but Pokorny denied him.

(Tp June 17, 2019

Page 75).To make his position worse, Pokorny only gave Hull 20
minutes.

( Tp June 17 2019 Page 49).

Dismissal of a case is

inappropriate where the neglect is the fault of the attorney.

Carpenter 723 F 3d at 704 quoting Carter V City of Memphis, 636
F 2d, 159, 161,

(6th Circ 1985).

ORC 2315.01(A)(1) does not

even require that parties make an opening statement let alone
address all issues in the opening statement. It is clear that
Lloyds complaint shows she can prove her case.

The complaint is

800 pages long with over 1000 pages of exhibits. Counsel should
always be granted the opportunity to supplement his opening
statement to satisfy the requirements. Commonwealth v Lowder 731
NE 2d, 510, 518 (Mass 2000).

Hull tried and was denied.

(June

17, 2019 Page 75) Pokorny also limited Hull to 20 minutes.
17, 2019 Page 49).

(June

The Fourth District Court of Appeals in Ohio

has ruled that a court must consider the pleadings before
granting directed verdict at the end of opening statements.
2012-Ohio-1145.

Pokorny refused to do so.

Hull never made any

claims during his opening statement that Lloyd would not be able
to prove her case. The law prefers that cases be decided on the
merits. Giles v Ameri Family Life Ins Co 987, SW 2d, 490, 492 (
Mo Ct app 1999)
Pokorny also sealed the entire civil case causing prejudice
to Lloyd and making it nearly impossible for Lloyd to file a
proper appeal. This also violates Lloyds and the public at large
1st and 14th Amendments.

(Appendix Q) Member Williams V Kisling

Nestico and Redick 2016-Ohio-3928, states the public has a right
to access court records and litigants have a right to

i S'

communicate about legal matters of public interest. The court
refused to give Lloyd documents and orders that were filed
because the case was sealed even though Lloyd was a party to the
case.

The sealing of the civil case also violates the 1st and

14th Amendments. The US Supreme Court has ruled that there is a
First Amendment right not only to access civil trails, but also
criminal trails.

Richmond Newspapers v Virginia 448 US 555, 573

(1980) . Pokorny sealed the case causing prejudice to Lloyd
during the appeal (Lloyd had no access to the docket during most
of the appeal) and Pokorny also sealed the jurors names as the
jurors were friends of the Defendants and their attorneys.

For

instance, one of the jurors is pictured on "Lindsay 'Molnars
Facebook page.

This is why their names continue to be sealed to

this date which is a violation of the 1st Amendment and 14th
Amendments.

(Appendix P)

Lloyd was also denied Default Judgement even though all the
Defendants were properly served and none except Trussel and
Schaffer filed an answer on time and the majority did not show
up to defend themselves in court.

(Td 53) (Td 61-67) (Td 70-72) (Td

77) (Td 80-83) (Td 90-98) (Td 129-134)Portage County local rule
11.04 and 9.01 entitle Lloyd to Default judgement.

Hull filed

multiple motions for Default Judgment, all of which were denied.
(Td 260)(Td 298)(Td 330) In fact, they were dismissed after
Hulls opening statement without ever responding to the lawsuit

or showing up in court to defend themselves.

(Tp June 17, 2019

Page 2)(Tp June 18, 2019 Page 213-214)(Tp June 19, 2019 Book 1
Page 165)-(Tp June 21, 2019 Page 132) This shows how corrupt and
tainted Lloyds trail was.

It was all sent to Lloyd in a private

message in 2017 by Brett McClafferty who is friends with the
Defendants and Portage County judges.

He wrote Lloyd and told

Lloyd the judges are laughing at her case and she will be
sanctioned.

This shows that Lloyds case was predetermined from

the day it was filed and 2 plus years before it went to trail.
Therefore, certiorari must be granted.

3. Is vexatious litigator status constitutional?
Lloyd was threatened with vexatious litigator status from
the minute her complaint was filed in March 2016 until November
2019 when Pokorny dismissed all charges.

This dismissal shows

that it was malicious prosecution by Defendants and Pokorny to
further abuse Lloyd.

'The vexatious litigator status in Ohio is

an abuse of discretion as Ohio uses it to abuse litigants like
Lloyd who stand up to the corrupt Ohio judicial system.

Lloyd

sued these Defendants as they trespassed and caused 25,000.00
worth of damage to her property and then threatened to rape and
murder her on Facebook while they made fun of her ADA protected
disabilities.

Thornsbery, even after hearing previous

depositions from Lloyds physicians, testified that he had his

\

"1

"friends" stalk Lloyd as Lloyd faked her disabilities and their
intent was to get Lloyd thrown off of disability.

This is why

they constantly videotaped Lloyd even while Lloyd did chores
such as throwing out her trash.

Because in the minds of the

Defendants {who admit to abusing drugs and even talk online
about hallucinating from drugs) state that Lloyd is crazy and
has no medical problems.

Thornsbery even testified to telling

his friends to trespass and blow cigarette smoke towards Lloyd
even while Lloyd was wearing oxygen.{Tp June 18, 2019 Pages
183-185, 190)

He even admitted to canvassing Portage and Wayne

Counties to get over 500 people to harass Lloyd and he admitted
he cut down trees on Lloyds property.

(June 18, 2019 Pages

16,67)(Tp June 18, 2019 Pages 210-212)(June 18, 2019 Page 28,
36-39, 40-46, 51, 54-55, 86, 117-119)

He even admitted to

stating he should have asked Lloyds permission and he should
have consulted a survey he had and he admits to telling LLoyd to
fuck off when Lloyd attempted to show him a survey.

Thornsbery

even admitted to threatening to murder Lloyd by choking her to
death and he admitted to consulting with litigants in Lloyds
other cases, including Justin Rogerson.

(Tp June 18, '2019 Pages

72-75, 105-108)(Tp June 19, 2019 Book 2 Page 278)(Tp June 20,
2019 Pages 278, 282) Thornsbery states his goal was to get all
of Lloyds cases derailed and to have Lloyd named a vexatious
litigator.

He even had his lawyer file a motion to get Lloyd

named a vexatious litigator even though he admits to Lloyds
accusations (Td 5).

Thornsbery even admitted to his loose pit
Yet, Lloyd was sanctioned

bull shitting on Lloyds property.

100,000.00 even though Thornsbery, the main Defendant in this
case, admits to everything Lloyd accused him and his friends of
doing.
fence.

Thornsbery even admits that Szabo pissed on Lloyds
Thornsbery admitted to having illegal fires burning

citronella candles, cardboard, plastic , clothing and other
illegal items after being told not to in a direct attempt to
maliciously injure Lloyds health. Thornsbery even admitted to
the knowledge that Lloyd was afraid of him.
Thornsbery maliciously attempted to get Lloyd named a
vexatious litigator even though he admitted to everything Lloyd
accused him of.

There is other people in Ohio named vexatious

litigators such as Terri Sizemore and Garrick Krlich who also
had valid cases with merit.

In fact, the definition of a

vexatious litigator in Ohio is a person who repeatedly files PRO
SE cases to harass somebody else.

Lloyd was never pro se until

after trail where Hull was threatened repeatedly with sanctions
until he was forced to withdraw even though he was illegally
allowed to withdraw and Pokorny did not follow Portage County
Rule 20.04.

Also, under Ohio Rules of Professional Conduct

1.16(b) (1), an attorney is not allowed to withdraw if it causes
prejudice to the client.

Lloyd was forced to fight sanctions

\°\

pro se when she was sanctioned due to Hulls responsibilities.
Lloyd never gave Hull his permission to withdraw. Lloyd had a
right to counsel under the 14th Amendment as her civil rights
were being violated and Lloyd lost her ability to own property
due to sanctions.

Lloyd is also indigent.

In fact, Hull

represented Lloyd in all of her cases except Lloyds federal
cases.

Once Hull withdrew, sanctions against him were dropped

and Lloyd was ‘further abused.

The vexatious litigator status in

Ohio is a form of abuse and is unconstitutional.

The courts are

the peoples courts and the Ohio Constitution Article I , Sect 16
states that all courts are open and every person with injury
done to land, goods, person or reputation shall have remedy by
due court of law and justice administered without denial or
delay.

Ohio vexatious litigator status is used to abuse

litigants and to deny them the right to court.
For this reason, certiorari should be granted.

4. Is sanctioning a litigant when the court has no
jurisdiction and a litigant has an attorney
unconstitutional and a due process violation
Lloyd was sanctioned when the court had no jurisdiction
over her.

Lloyd was also forced to be pro se as Pokorny allowed

Hull to withdraw not even following the law to do so and causing
prejudice to Lloyd, forcing Lloyd to be pro se.

Lloyd

specifically wrote in her motion that Lloyd is prejudiced
because of Hulls withdrawal.
threatened with sanctions.

Hull only withdrew after being
Hull has always believed Pokorny

violated Lloyds state and Federal Rights and mentioned that
multiple times during trail and in Motions and a Writ he filed.
It is clear that threats to sanction Hull were maliciously done
to force Lloyd to be pro se because once Hull withdrew, all
sanctions against him were dismissed. During sanctions hearing
on October 18, 2019, Pokorny abruptly cut Lloyd off while she
was talking further violating Lloyds right to due process under
the 14th Amendment.

Pokorny even specifically stated he has no

jurisdiction over the case and he has no jurisdiction to
sanction Lloyd.

He sanctioned Lloyd anyway.

All Pokorny did

was have Whitcare and Molnar draft up motions to sanction Lloyd
and he signed them.
his own order.

Pokorny in no shape or form, came up with

Pokorny has no oath of office, had no

jurisdiction over Lloyd or the case, was illegally assigned to
Lloyds case without even following Ohio law, denied Lloyd
discovery and the right to a fair jury trail, and then signed
off on orders written by Molnar and Whitacre, sanctioning Lloyd
100,000.00 and faulting Lloyd for things that were Hulls
responsibilities and even sanctioning Lloyd for acting pro se
when she was forced to act pro se after Pokorny forced Hull to
withdraw from the case by threatening him multiple times during

3\

the case.

In fact, Lloyds other attorneys, Jennings, Mclnturf

and Freidburg were also threatened during this case beginning
with 'Judge Rebecca Doherty.
Defendants never gave Lloyd a single document showing any
ledger of their attorneys fees as required under ORC
2323.51 (B) (5) .

They also dismissed all sanctions against Hull

when he is required to be a party to sanctions as he was
responsible for the things Lloyd was sanctioned for.

It is

unconstitutional to sanction a client for an attorneys
responsibilities.

Molnar and Whitacre had Lloyd sanctioned the

exact amount of money they owe for their personal debts
including Whitacres mortgage and loans Molnar owes for her law
school education.

Molnar and Whitacre devised a scheme to

sanction Lloyd so Lloyd could be their bank.

They allowed their

clients to do drugs, damage Lloyds property and threaten to
murder and rape ‘Lloyd for 5 plus years now.

Their clients admit

to these actions and Molnar stated it is funny for her clients
to threaten to rape and murder Lloyd.
Lloyd was also denied discovery as stated above which would
have allowed Lloyd to develop the facts more fully in her case
and would have given Lloyd more evidentiary support for her
claims.

Ohio law also dictates that parties involved in

litigation are expected to pay their own attorneys fees.
ex rel Grosser v Boy (1976), 46 Ohio St 2d, 184, 185.

State

The facts

Lloyd did try to show such as videos and pictures of the
Defendants causing her property damage and harassing her,
Pokorny refused them. ’ Pokorny also cut off Hull when he
attempted to speak and refused any of Lloyds evidence including
public police body cams to be shown to the jury.

(Tp June 20,

2019 Pages 6-7, 17). Pokorny even admits the Defendants had a
copy of Lloyds evidence and still refused it.
Page 14).

(Tp June 17, 2019

(June 20, 2019 Page 96)

Furthermore, Lloyd has emails in which Molnar and Whitacre
attempted to settle with Lloyd and when she refused, they
continued their abuse towards Lloyd.

Under ORC 2323.51, a claim

is only frivolous if it is absolutely clear that no reasonable
attorney would argue the claim,

Lloyd had 4 separate attorneys

argue her claims, Bradley Hull IV, Jonathan Jennings, Ronald
Freidburg and Kinsey Mclnturf. Lloyd was also sent a message by
Attorney Kenneth Sheets who told Lloyd "I am sorry for what is
happening to you.

I do believe in your case the court is 100

percent wrong."Therefore, Lloyd had at least FIVE reasonable
attorneys who felt her claims had merit and again, the
Defendants admit to what Lloyd accused them of and yet Lloyd was
sanctioned 100,000.00 anyways.

This was all abuse and just a

malicious attempt by Whitacre and Molnar to get Lloyd to shut
up.

There was other attorneys by the Defendants and none of

them tried to sanction Lloyd.

Pokorny was illegally assigned

and had no oath of office

Also, the case was already on appeal for

as discussed above.

several months (since June 2019- and Lloyd was not sanctioned
until Novemebr '2019') .

Trail court loses its jurisdiction when a

case is on appeal and absent a remand, it does not regain
jurisdiction. Jay v Massachusetts Casualty Ins Co 5th Dist No
2009CA00056, 2009-0hio-4519
Ohio Supreme Court was also obligated to take Lloyds case
because there is separate opinions in Ohio as to whether a
client with an attorney can be sanctioned.

The 11th district

has now sanctioned Krlichs and Lloyd among others even though we
had attorneys.

However, in Estep v Kasparian, Ohio 10th

District, Franklin County 79 Ohio App 3d 313- It was determined
to be an abuse of discretion to assess sanctions against a
client rather than counsel.

There is no evidence that Lloyd

misled Hull with her claims.

Lloyd was sanctioned for Hulls

responsibilities.

The majority of Lloyds case was even

dismissed due to Hull not mentioning all of the Defendants names
during opening statements. This goes against the law and
precedented cases in Ohio, Massachusetts and Missouri as stated
above.
Lloyd was also never properly served any sanctions motion.
Whitacre never served Lloyd at all and Molnar attempted to serve
Lloyd but it is clear the docket shows service failed.

(Td

I

384).Lloyd never waived service of these documents. Furthermore,
multiple motions to dismiss were all denied showing Lloyds case
had merit. The Defendants also properly failed to join Hull as a
party and in fact dismissed Hull from the sanctions when in
reality, Lloyd was sanctioned for responsibilities of Hull.
Lloyd was also sanctioned because Hull did not show all of the
evidence he said he would (Pokorny denied most of it), Hull
stated Lloyds doctors would state the harm to her health
(Pokorny denied their depositions and their testimonies).
filed the complaint, not Lloyd.

Hull

Hull failed to do depositions,

not Lloyd. Hull failed to present evidence and /or Pokorny
refused the evidence Hull attempted to present. All of these
were Hulls responsibilities, not Lloyds and yet Lloyd was
sanctioned for it.

Then, Lloyd was sanctioned for filing

documents pro se when in reality she was pro se as Pokorny,
Whitacre and Molnar threatened Hull with sanctions until his
lawyers forced him to withdraw.

This is obvious a malicious

attack to force Lloyd to be pro se.

In fact, Brett Mcclafferty

(who was practicing law without a license while he filed papers
for the Szabos) and recently was released from jail, wrote Lloyd
a private message in 2017 telling Lloyd that she will be
sanctioned and Portage County courts are laughing at her case.
This shows that Lloyds case was predetermined.

McClafferty is

friends with the judges who regularly post on his facebook page.

Furthermore, it is obvious Lloyds entire case had merit.
Thornsbery and other Defendants admitted to what Lloyd accused
them of doing and sanctions against Lloyd were just an attempt
to shut Lloyd up.

Pokorny and Whitacre even conspired to get

Lloyd kicked off of social media and threatened to silence
Lloyd. Trapp, Rice and Cannon made it clear in their opinion
they ruled against Lloyd as she talks about the Ohio judiciary
online which is Lloyds First Amendment right to do so.

They did

not even review the facts of the case, blatantly defame Lloyd
and lie in their opinion, then conspired with Akron Legal News
along with Whitacre and his wife Lisa, to get Lloyds reputation
further injured by posting an article on March 3, 2021 seen by
thousands and thousands of people entitled "Portage County
womans conduct was frivolous in neighbors dispute" which is also
,

full of defamatory lies for instance stating that Lloyd did not
prove trespass or property damage when Thornsbery himself
admitted during trail to trespassing over 10 feet onto Lloyds
property and cutting down her trees. Ohio Constitution Article
I, Section 11 states that every citizen may speak freely, write
and publish his sentiments on all subjects.
It is clear that sanctioning Lloyd was just another
violation of Lloyds rights and a step taken by Defendants, their
attorneys and Pokorny to further abuse Lloyd.

It has already

been determined by the US Supreme court, you cannot ban someone

from the internet no matter what theyve done. Peckingham v North
Carolina. It violates the First and Fourteenth Amendments to do
so. Whitacre even stated in his motion that Lloyd has a gag
order against her and she is violating it.
true.

(Td 392).

None of this is

Whitacre and Molnar even state in their motions

that Ohio is under no obligation to follow Federal Law and the
Supremacy Clause.

Lloyd did nothing wrong except sue people who

damaged her property, her health, and her reputation.

Nobody has ever sued Lloyd for any of her social

be reiterated.
media posts.

It must

Sanctioning Lloyd was a due process violation as

Lloyds claims have merit (shown by all motions to dismiss filed
over a 3 year period were denied), and Defendants admit to their
actions and sanctions caused Lloyd to lose the ability to own
property and destroyed Lloyds good credit rating. Ohio
Constitution Article I, Section I states all people have a right
to enjoy and defend life and liberty, acquire possess and
protect property and seek and obtain happiness and safety.
Defendants admit to threatening Lloyds life and admit to taking
Lloyds property.

Due to sanctions, Lloyd has lost her ability

to acquire new property.
For this reason, certiotari must be granted.

5. Is denying a new trail constitutional when a litigants
rights are denied?

Lloyd and Hull asked for a new trail.
denied.

Multiple times it was

(Appendix N)(Appendix P)(Appendix Q) Pokorny and a juror

were asleep.' Lloyd was denied discovery.

The majority of

Lloyds case was thrown out after Hulls opening statements even
though dismissal is illegal when the fault of an attorney.
Pokorny was prejudiced towards Lloyd by trying to hold Lloyd in
contempt for a hearing she was not obligated to attend and
threatening to dismiss Lloyds case during trail because she
would not disclose her address to people who threatened to
murder her.

Litigants in civil cases have a right to an

impartial tribune.

Life, liberty or property will not be taken

on basis of erroneous or distorted conception of the facts or
law.

Pokorny showed intent and predispositions to rule against

Lloyd even before trail began. Goldberg v Kelly 397 US 259, 271
(1970) . Marshall v Jerrico 446 US 238, 242 (1980) .
Appeals court refused to correct these abuses of discretion
because they made it clear they ruled against Lloyd due to Lloyd
exerting her first amendment rights against the Ohio judiciary
on social media.

They feel Lloyd should have bought her house,

allowed Thornsbery pit bull to chase Lloyd and her dogs and shit
all over Lloyds property, allowed Thornsbery and,his friends to
cut down Lloyds trees and have massive fires burning clothing
and drug paraphenelia and catching Lloyds fence on fire, then
Lloyd should have allowed these people to threaten to rape and

9>V

murder her and make fun of her ADA protected disabilities online
while they defame Lloyd.

Since Lloyd spoke out about the abuse

she faced with the court system the appeals court feels it is
also acceptable to abuse a disabled woman further trying to
violate Lloyds first amendment rights.

In fact, when Lloyd

posts on any of their official govt pages, they immediately
block Lloyd which has already been determined in Lloyd v
Streetsboro ND Ohio 5:18-cv00073 to be illegal.

Streetsboro

settled with Lloyd in February 2020 for their abuse of Lloyd.
For this reason, certiorari must be granted.

6. Is sanctioning a litigant constitutional when the
other parties admit to fault?
Thornsbery and other parties admit to fault in this case.
Lloyd was sanctioned anyway.
of him.

Thornsbery admits Lloyd is afraid

(Tp June 19, 2019 Book 2 Pages 253-254).

Thornsbery

admits Szabo pissed on Lloyds fence {Tp June 18, 2019 Pages
' 187-189). Thornsbery admits to trespassing up to 10 feet onto
Lloyds property.

(Tp June 20, 2019 Pages 262, 269). David

Kennedy, arborist testified that Defendants cut down 2 trees on
Lloyds property worth 4000.00.

{June 18, 2019 Pages 145-148).

In ohio, destruction of timber is awarded treble damages ORC
901.51.

That is at least 12,000.00 in property damage to Lloyd.

Vidoes proffered into evidence (since Pokorny refused them),

clearly show Defendants cutting down Lloyds trees, massive fires
ignited by gasoline directly next to Lloyds fence, and other
property damage along with Defendants blowing cigarette smoke at
Lloyd even while Lloyd was wearing oxygen.

Vidoes also show

Defendants revving motorcycles for long periods of time and even
talk online about doing this to maliciously upset Lloyd.
went on all hours of the day and night even at 3 am.

This

Sebastian

Dzialuk and Thornsbery brag about using signal jammers to
interfere with Lloyds internet and wireless cameras. Nick Balas
admits to cutting down Lloyds trees (Tp June 18, 2019 Page 219).
Welms admits to Thornsberys illegal fires (Tp June 18, 2019 Page
226)

(Tp June 20 2019 Page 234).

Welms even threatened to shoot

Lloyd with a gun. Welms admits to Thornsbery fires catching
Lloyds fence on fire (Tp June 20 2019 Page 249)Thornsbery
admitted to illegal fires even after being cited (Tp June 18,
2019 Pages96-102)(Tp June 20, 2019 Pages 201, 256).
Michael Szabo admits to posting he pissed on Lloyds fence
but him and his attorney Molnar feel it is funny.
2019 Page 234)

(Tp June 18,

(Tp June 20 2019 Page 129) Szabo also thinks its

funny he stated he will murder Lloyd for 50.00 and show Lloyd
his tool (penis).

(Tp June 18 2019 Pages 251-254)(Tp June 19

2019 Book 2 Page 277). Szabo lied and stated he never assaulted
anyone and yet in Portage County he was charged with assault and
forced to undergo anger management classes.

State of Ohio V

Michael Szabo 2000 CRB03458R.

Thornsbery admits Bruntys removed

stumps from Lloyds property ( TP June 18, 2019 Pages 210-212).
Eric Siwierka admits to illegal fires ((Tp June 20, 2019 Page
210)Videos proffered into evidence shows Eric Siwierka getting
out of his vehicle, walking up to Lloyds fence and blowing
cigarette smoke into Lloyds property. Videos proffered into
evidence show Phillip Siwierka turning around and blowing
cigarette smoke towards Lloyd as she sits on her own front porch
wearing oxygen.

Thornsbery admits to having his friends blow

cigarette smoke onto Lloyds property (Tp June 18, 2019 Pages
64-72) Thornsbery admitted that cigarette smoke is not good for
anyone and he would only stop his friends from smoking if it
affected him personally (Tp June 18, 2019 Pages 71-72)Thornsbery
admits Lloyd wears oxygen due to her health problems (Tp June
18, 2019 Pages 59-66)

Siwierkas and Welms all admit to

attending illegal bonfires and smoking ( Tp June 18, 2019 Page
62) (Tp June 18 2019 Pages 172-180)Lloyd had 5 physicians waiting
to testify in her behalf about the harm Defendants caused to her
health.

Pokorny refused 2 of their previous testimonies and he

refused to delay the trail by one day so they could testify on
Monday in person. Defendants created a nuisance until Lloyd was
forced to sell her house. Thornsbery defamed Lloyd by telling
people her cameras were pointing into his bedroom window and
then posting online they look at Lloyds fence.

3'

( Tp June 18,

2019 Pages 22, 171).

After Lloyd was sanctioned, Defendants

began to brag online "I win, you lose" and "show me the money".
They even created a fake email address usersmith5 6(3crmail. com to
send messages to Lloyds attorney Hull stating Lloyd is suicidal.
They are being told by Pokorny, Trapp, Rice and Cannon and
These

Maureen O'Connor that it is acceptable to abuse people.

Defendants have a 20 plus year history of abusing drugs and
woman.

Thornsbery himself threw a woman to the ground twice and

then punched holes all throughout his mothers house until she
finally threw him out.

He even found an abandoned gun in a

public parking lot and fired it.
hallucinating from drug abuse.

He brags online about
He threatened to murder Lloyd a

few days after she bought her house because Lloyd reported him
for his loose pit bull in her yard that chased Lloyd. Thornsbery
admits to these actions and instead of changing his ways,
instead he gets over 500 people to threaten to rape and murder
Lloyd and degrade and defame Lloyd.

Thornsebry admits to this.

(Tp June 18, 2019 Pages 72-75 and 105-108)

(Tp June 19 2019 Book

2 Page 278){June 20 2019 Pages 278, 282).

Thornsbery even

admits to looking through Lloyds window and watching Lloyd sit
in her kitchen {June 18 2019 Page 49).

Thornsbery admits to

illegal fires and burning cardboard and citronella candles even
after being cited (Tp June 18, 2019 Page 96, 100-102) (Tp June
20, 2019 Page 201, 256)A11 of Lloyds claims had merit.

yx

The

underlying court systems are just corrupt.

Thornsbery and the

Defendants admitted to their actions as they knew they were
protected and their friends were on the jury. Thornsbery posted
the EPA citation on his Facebook page and thought it was funny.
Instead of

changing his ways, he admits to continuing his

illegal fires.
Thornsbery said it best in his post about Lloyd "This
mother fucking cunt is in for a rude awakening.

She has no idea

the can of worms she has opened or who she has pissed the fuck
off.

Im fucking livid and Im going to choke a bitch."

For 20

years, Ohio has allowed him to hallucinate from drug use, be on
multiple psych medicines and be violent towards woman while he
owns over 50 guns.

It will not stop until he actually murders

someone but knowing how corrupt Ohio is, Thornsbery would
probably walk away with murder also.
For this reason, certiorari must be granted.

7. Is a State Supreme court allowed to deny cases when a
litigants State and Federal Constitutional Rights are
violated?
Ohio Supreme Court is obligated to take cases which arise
under the Ohio and US Constitutions as per Article IV, Section 2
of the Ohio Constitution.

They are also obligated to take cases

32>

in which 2 different appeals courts have 2 separate opinions.
They refused to take Lloyds case anyway.
For this reason, certiorari must be granted.

8. Is threats to rape and murder and defamatory and
derogatory comments about a (disabled) person free
speech and/or a negative opinion as the appeals court
states?
ORC 2917.21(B)(2) states no person shall knowingly post a text
or audio statement or image on an internet website for the
purpose of abusing, threatening or harassing another person.

It

is clear all defendants violated ORC 2917.21(B) (2) when posting
about Lloyd in Thornsberys social media pages.

Defendants also

state they will get the Hells Angels after Lloyd and they post
pictures of themselves at gatherings for the Hells Angels
On April 29, 2021, the

chapter of Portage County, Ohio.

Department of Justice put out a warning about the Hells Angles
and other motorcycle gangs posing a natural domestic threat.
Under the US Constitution, Lloyd had a right to own property and
be free from property damage and threats by the Defendants and
to live her life and pursue happiness which was taken away by
the Defendants.

Lloyd still fears for her safety as the

Defendants still threaten to murder Lloyd and talk about their
ultimate plan of Lloyd.

Thornsbery admitted to this during

3

u

trail.

Ohio house bill Sub HB 151 also prevents someone from

posting on social media any statement that would lead someone
else to believe they are in danger.

It is clear that any

reasonable person would feel in danger after reading the below
threats directed towards Lloyd by all the Defendants.
Thornsbery admits all posts are in relation to Lloyd.

Their is

no dispute it was Lloyd they are threatening to murder and
discussing.
Thornsbery threatened to murder Lloyd by choking her to death.
Mike Szabo threatened to murder Lloyd for 50.00 and posted he
pissed on Lloyds fence and damaged Lloyds fence.
Thornsbery posted that after the case is over people can fuck
with Lloyd.
Jason Ortman posted for Lloyd to eat his dick.
Mike Szabo and Joshua Thornsbery made fun of Lloyds oxygen and
mobility scooter and Lloyds other ADA protected disabilities.
Thornsbery posted pictures of Lloyd on Facebook so others would
stalk her such as Staci Dalton Liddle who stated she saw Lloyd
at the library and her son asked why Lloyd was wearing a mask
and Liddle told her son "Because (Lloyd) is crazy, thats why"
Robert DiNatale tells Thornsbery "Lloyd wants you to bone her.
She wont stop till you do."
Marty Kendzior tells Thornsbery to "post Lloyds name and
address"

I

Thornsbery states "No fucking with the wacko Lloyd until after
the court date"
Marty Kendzior iri a post referencing causing Lloyd harm "you
need

someone from out of state to help you"

Shelly Renee tells Thornsbery "turn Lloyd into social security"
in an attempt to get Lloyd thrown off of disability.

The

Defendants reported Lloyd to ss multiple times and Lloyd was
always deemed 100 percent disabled.
Craig Lindgren tells Thornsbery to leave a copy of OJ Simpsons
book "If i did it" in the backyard to threaten Lloyd
William Taylor "want me to come over and show her my ####" and
he also states he will come stalk Lloyd while Thornsbery is at
work.
Smith Andy Wesson " you need to bang Lloyd real good."
Even at the time city council president Jeff Allen gets involved
and calls Lloyd a freak which shows why Ohio allowed this to go
on for years.
Jeremy Stump DiGiammarino states "We need to go to Thornsberys
stand shoulder to shoulder and smoke" to upset Lloyd
Karl Butterworth "fire a few shots from a air soft pistol"
Frank Chlad "smoking party at Thornsbery and lets burn some wet
leaves"
Thornsbery "for someone on disability, i sure see her doing
alot.

I have to call in and request an investigation on Lloyd"

30

Jason ortman "Thornsbery has plenty of brush to burn.
not going to be happy."

Lloyd is

after knowing burning brush is illegal

Mike Szabo "can i come over and show Lloyd my tool (penis)"
John Riley "You should have cross body checked Lloyd into the
boards"
Thornsbery posts pictures of Lloyds no smoking signs on his
Facebook page and encourages his friends to come blow cigarette
smoke at Lloyd.
Sandi Round Szabo tells Thornsbery to get naked for Lloyd
Tara G Ellin tells Thornsbery to put vaseline on Lloyds camera
lenses and Thornsbery tells her to come on by and do it
John Riley tells Thornsbery to go by Lloyds fence and jerk off
Mike Szabo calls Lloyd a cunt repeatedly
Jeremy stump DiGaimmarino tells Thornsbery to get a laser to
interfere with Lloyds cameras
Jason ortman states "May i come over and piss on Lloyds camera"
Thornsbery admits Lloyds camera points down fence so he doesnt
damage it.

Thornsbery is then on video screaming that Lloyds

camera is pointed into his bedroom window.
Jason ortman calls Lloyd a paranoid schizophrenic
Mike Szabo "well Josh with all this talk about Lloyd, I couldnt
resist.

Went over last night and pissed on her fence.

that is on camera".

Hope

Darrel Huber posts a picture of a man underwater with a knife
and states he will get rid of Lloyd for a small fee
Marty Kendzior states he will come over and damage Lloyds
chimney and dryer vents and also says a cemetery is a wish for
Lloyd.
Brody Singleton "Cunt Punch that bitch"
Jason ortman states Lloyd needs to eat his dick.
Eric Siwierka "Lloyd needs to get laid real bad or stoned out of
her mind"
Brody Singleton "Burn out competition at Thornsberys and
afterwards bring leaves and shrubs to burn"
Shelly ortman "cant wait for your next bonfire Josh"
Tony McMurdo "tell Lloyd she has no clue what she started and
how bad shes going to regret this"
Frank Chlad "we need a party so we can smoke and have a fire
that smokes and do burnouts"
David Trussel "i sorta maybe mighta did a burn out today at
Thornsberys"
David Trussel "Im glad Lloyd was able to enjoy my cigarette as
much as I"
Apryle Davis "It looks like cuntilla Lloyd needs to invest in
heavy duty respiration equipment"
Jamie Lesch Newman "Thorhsbery needs a biker party"

3V

Thornsbery admits his attorney told him to stop harassing Lloyd
March 21, 2016 but he continued anyways
Sebastian Dzialuk tells Thornsbery to get signal jammers to
interfere with Lloyds cameras.
Thornsbery states when Lloyd asked him to not allow his friends
to blow cigarette smoke into her yard " I laughed in her face
and said youre a fucking cunt.

I then told everyone to light

up. Hope you all are enjoying this."
Jason ortman "Im going to be there when you have a bonfire.
1000 watts of now you have a reason to bitch'
Shelly ortman "Im going, to light one up when I come visit"
Mike Szabo "If you have 50 bucks Josh you wont have a neighbor"
Apryle Davis "There are ways to foil a home security system"
Justin Smialek "Take a red dot sight on her chest"
It is clear these and hundreds of other statements made by the
Defendants towards Lloyd are not protected speech.
Therefore, certiorari must be granted.

REASONS FOR GRANTING THE PETITION
The US Supreme Court needs to hear this case as these issues not
only affect Lloyd but thousands if not millions of other
litigants across the US.
stop.

The abuse from our court systems must

Portage County Ohio, through this case, has set a

31

terrible precedent that it is acceptable to go on social media
and threaten to rape and murder a stranger.

Thats right.

The

majority of these Defendants never even saw Lloyd a day in her
life.

Thornbery admitted to recruiting well over 500 people to

threaten Lloyd and he even admitted that they continue to
threaten Lloyd,

Portage County Ohio has also set a terrible

precedent in sanctioning Lloyd and others including Garick
Krlich for exerting their rights as a citizen of the United
States.

Lloyd was sanctioned 100,000.00, lost her property and

could lose her life as a result of a corrupt court system who
decided it is acceptable to damage Lloyds property over
25,000.00 and maliciously injure Lloyds health and reputation.
All of the Defendants through their own writings and testimonies
admit to these behaviors.

This precedent set by Portage County

must be overturned before other people are abused by the very
■ system meant to protect US Citizens.
CONCLUSION
This writ of certiorai must be granted so others do not use this
precedented case to abuse other people,

The underlying courts

have now set a precedented case which states it is okay to
damage property and threaten to rape and murder somebody on
social media.

The petition for a writ of certiorari should be

granted.

•jo

t*

